<html>
<title> - EARTHQUAKE PREPAREDNESS: WHAT THE UNITED STATES CAN LEARN FROM THE 2010 CHILEAN AND HAITIAN EARTHQUAKES</title>
<body><pre>[Senate Hearing 111-1009]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1009
 
                        EARTHQUAKE PREPAREDNESS:
  WHAT THE UNITED STATES CAN LEARN FROM THE 2010 CHILEAN AND HAITIAN 
                              EARTHQUAKES

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2010

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
63-864                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                        MARK L. PRYOR, Arkansas
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
                     Donny William, Staff Director
                  Ryan Tully, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1

                               WITNESSES
                      Thursday, September 30, 2010

William L. Carwile, III, Associate Administrator for Response and 
  Recovery, Federal Emergency Management Agency, Department of 
  Homeland Security..............................................     3
Dirk W. Dijkerman, Acting Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development..................................     5
Cristobal Lira, Director, Committee for Earthquake and Tsunami 
  Emergency (March-August, 2010), Reconstruction Committee (Since 
  August, 2010), Chilean Ministry of Interior....................     7
James M. Wilkinson, Executive Director, Central United States 
  Earthquake Consortium..........................................    16
Ellis M. Stanley, Sr., Vice President, Dewberry, and Director of 
  Western Emergency Management and Homeland Security Services....    17
Reginald DesRoches, Ph.D., Professor and Associate Chair, Georgia 
  Institute of Technology, School of Civil and Environmental 
  Engineering....................................................    19

                     Alphabetical List of Witnesses

Carwile, William L. III:
    Testimony....................................................     3
    Prepared statement...........................................    25
DesRoches, Reginald Ph.D.:
    Testimony....................................................    19
    Prepared statement...........................................    87
Dijkerman, Dirk W.:
    Testimony....................................................     5
    Prepared statement...........................................    39
Lira, Cristobal:
    Testimony....................................................     7
    Prepared statement with attachment...........................    45
Stanley, Ellis M. Sr.:
    Testimony....................................................    17
    Prepared statement...........................................    81
Wilkinson James M.:
    Testimony....................................................    16
    Prepared statement...........................................    73

                                APPENDIX

Questions and responses for the Record from:
    Mr. Carwile..................................................    93
    Mr. Wilkinson................................................    97
Maps submitted by Senator Pryor from U.S. Geological Survey and 
  FEMA...........................................................    99
Earthquake Comparison submitted by Mr. Wilkinson.................   104
Map submitted by Mr. Stanley.....................................   105
Additional document submitted for the record by Mr. Lira.........   106


                     EARTHQUAKE PREPAREDNESS: WHAT
     THE UNITED STATES CAN LEARN FROM THE 2010 CHILEAN AND HAITIAN 
                              EARTHQUAKES

                              ----------                              


                      THURSDAY, SEPTEMBER 30, 2010

                                 U.S. Senate,      
             Ad Hoc Subcommittee on State, Local, and      
           Private Sector Preparedness and Integration,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I want to go ahead and call our hearing to 
order. I want to thank everyone for being here. I am sorry I 
was a few minutes late. I got caught out in the hallway, but 
want to welcome everyone to the Ad Hoc Subcommittee on State, 
Local, and Private Sector Preparedness and Integration. We are 
part of the Senate Committee on Homeland Security and 
Governmental Affairs.
    We have a very distinguished set of panelists and witnesses 
today, to speak on an issue that is very important for our 
nation's earthquake preparedness.
    I want to start the hearing with a quote, and it says, 
``The earthquakes cause the ground to rise and fall, bending 
the trees until their branches intertwined and open deep cracks 
in the ground. Deep seated landslides occurred along the 
steeper bluffs and hillsides; large areas of land were uplifted 
permanently; and still larger areas sank and were covered with 
water that erupted through fissures or craterlets. Huge waves 
on the Mississippi River overwhelmed many boats and washed 
others high onto the shore. High banks caved and collapsed into 
the river; sand bars and points of islands gave way; whole 
islands disappeared.''
    This sounds like something that might be out of the Book of 
Revelation, but it is not. It is something that the U.S. 
Geological Survey (USGS) has on their website, and it is a 
quote from the two series of New Madrid earthquake back in 1811 
and 1812.
    I think a lot of times people in my part of the country 
feel like earthquakes are something you see on the west coast 
or in other countries. But we have more fault zones than just 
the ones in California and the other States in the west. 
Earthquake preparedness is something that is very important and 
we should make sure that the Federal Emergency Management 
Agency (FEMA) and others are on top of. We want to have this 
hearing today to get a sense of how prepared the United States 
is to handle an earthquake.
    The witnesses here today have traveled from all around the 
country, and in Mr. Lira's case, as far away as Chile, to 
address the ability of the United States to respond to and 
recover from a major earthquake. I appreciate all of you for 
being here, especially you, Mr. Lira, for coming such a great 
distance to help us.
    I would like to also recognize the Chilean Ambassador who 
is here, Ambassador Arturo--is it Fermandois?
    Ambassador Fermandois. Fermandois.
    Senator Pryor. Thank you. Welcome to the Subcommittee. It 
is great to have you here.
    We have called this diverse group of witnesses because they 
have taken part in the response to some of the more powerful 
and catastrophic earthquakes in recent history, the January 
12th earthquake in Haiti and the February 27th earthquake in 
Chile. Both of these were similarly powerful earthquakes. 
However, the outcomes of the two countries' response efforts 
could not have been more disparate.
    In Haiti, we saw the worst case scenario: A very poor 
country with very primitive building codes and minimal response 
capacity. Some 230,000 people died during this event, and 
another 300,000 were injured. Over a million people remain 
homeless. I want to note that we extended an invitation to the 
Haitian government to send a representative here to testify 
today, but they still have an all-hands-on-deck response going 
on after January's catastrophe.
    A month later an 8.8 magnitude earthquake struck off the 
coast of Chile. Seismologists estimate that the earthquake was 
so powerful that it moved the earth's figure axis by 2.7 
milliarcseconds.
    Tsunami warnings were issued in 53 countries causing minor 
damage in San Diego, California, and in Japan. Despite the 
magnitude of this disaster, the death toll was only 521, most 
killed by the tsunami. These events hold extremely valuable 
lessons for U.S. Government officials working to develop plans 
for responding to a severe earthquake on American soil. Our 
goal is to make an American response look more like the results 
of Chile, rather than the results in Haiti.
    As we near the 100th anniversary of the 1811 and 1812 New 
Madrid earthquakes, we are reminded how critical planning and 
preparation are to mitigating against loss of life and 
property. The effects of the New Madrid earthquakes were spread 
over a vast area. Physical damage was reported as far away as 
Charleston, South Carolina, and Washington, D.C. In Boston, 
Massachusetts, which is about 1,000 miles from the epicenter, 
church bells rang due to the seismic vibration.
    Consider this: A modern major earthquake along the New 
Madrid fault, which covers seven States, Arkansas, Mississippi, 
Tennessee, Missouri, Kentucky, Illinois, and Indiana, could 
impact up to 44 million Americans who live in that region, 
including some 12 million Americans who live in the highest 
impact zones. FEMA estimates over $70 billion in infrastructure 
damage, while others predict a $500 billion response and 
recovery effort.
    The potential of loss of life, damage to public and private 
structures, and disruption of interstate commerce is 
staggering. With the recent international earthquakes, we can 
learn valuable lessons. Our witnesses who are here today will 
help this Subcommittee learn some of those lessons and document 
those for the Committee's work and the Senate. I hope the 
outcome of this hearing is that it will lead to a more 
effective response and more effective preparation to these 
tragic events when they do occur.
    I will introduce each one of the four witnesses on this 
panel. We will give everyone 5 minutes for their opening 
statement and we will submit your written testimony for the 
record. Do not feel obligated to read every single word of your 
written testimony. You may paraphrase or skip sections, that is 
up to you. But try to speak under 5 minutes and then we will 
open the panel up for discussion and for questions.
    Our first witness is Bill Carwile, Associate Administrator, 
at the Federal Emergency Management Agency. Our second witness 
is Dirk Dijkerman, Acting Assistant Administrator of the Bureau 
of Democracy, Conflict, and Humanitarian Assistance at the U.S. 
Agency for International Development. And our next witness is 
Carol Chan, who is the Director for the Office of U.S. Foreign 
Disaster Assistance at USAID. And then our last witness will be 
Mr. Lira.
    So, Mr. Carwile, would you like to lead us off?

TESTIMONY OF WILLIAM L. CARWILE III,\1\ ASSOCIATE ADMINISTRATOR 
FOR RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Carwile. Good morning, Chairman Pryor. Thank you for 
inviting me to appear before you today on behalf of the 
Department of Homeland Security (DHS) and the Federal Emergency 
Management Agency. It is my privilege to discuss preparation 
for a whole community response to and recovery from a 
catastrophic earthquake. I am also prepared to discuss some of 
the lessons we learned from our support to the U.S. Agency for 
International Development (USAID) and the Office of U.S. 
Foreign Disaster Assistance (OFDA) during the Haitian 
earthquake response, as well as our reconnaissance work during 
the earthquake in Chile.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Carwile appears in the appendix 
on page 25.
---------------------------------------------------------------------------
    I am Bill Carwile, FEMA's Associate Administrator for 
Response and Recovery. I am a retired U.S. Army Colonel and 
former Defense Coordinating Officer (DCO) who also served as 
Federal Coordinating Officer (FCO), other senior emergency 
management positions, and I am well-aware of the immense 
response and recovery challenges that face survivors of a major 
incident like an earthquake.
    Such an event will require an immediate, massive, and 
sustained support from the whole community. The whole 
community, that is the Federal, State, local governments, and 
our many private sector and volunteer agency partners, as well 
as the survivors themselves. The enormous destruction in a 
catastrophic disaster environment requires us to focus on our 
number one priority: Saving and sustaining lives within the 
first 72 hours.
    The whole community must be prepared to respond in ways 
beyond our normal paradigms. We must seek atypical solutions 
and adopt a planning process that incorporates such approaches.
    Our planning assumptions for a catastrophic disaster are 
based on worst case scenarios derived from modeling and 
historical analysis. These are designed to challenge 
preparedness at all levels and enforce innovative, non-
traditional solutions as part of the response strategy to such 
events.
    National earthquake planning currently includes developing 
a Federal Interagency Operations Plan for earthquakes. This 
plan is a response and short-term recovery-oriented document. 
It ties national, regional, and state efforts together in a 
capstone document that addresses how the Federal interagency 
will prepare for and respond to a catastrophic earthquake 
anywhere.
    This plan is closely linked to the development of the 
National Level Exercise (NLE) 2011, which has, as its scenario, 
an earthquake along the New Madrid fault seismic zone. The four 
FEMA regions and eight States that are in that zone are working 
in partnership with Federal, State, and local agencies to 
develop a coherent plan using our recently published Regional 
Planning Guide (RPG).
    Scenario and damage information to inform planning efforts 
are provided by the U.S. Geological Survey and the academic 
community. Regional planning and the development of operational 
plans are completed or underway for several other geographic 
areas that have high earthquake hazards, including the San 
Francisco Bay area and Southern California.
    Our Region VIII and the State of Utah are working together 
to develop a joint region/state catastrophic earthquake plan 
for the impact of an earthquake along the Wasatch fault. Region 
II will lead an 18-month planning effort to develop joint 
regional plans with Puerto Rico and the U.S. Virgin Islands to 
address a catastrophic earthquake and tsunami in the Caribbean.
    FEMA Regions IX and X in the States of Washington, Oregon, 
California, Alaska, Idaho, and British Columbia, Canada, will 
work together to develop joint plans for an earthquake and 
tsunami addressing the earthquake and resulting tsunami 
occurring in the Cascadia Subduction Zone in the Pacific 
Northwest of the United States and Canada.
    All of our future planning efforts will incorporate the 
lessons we learned from our deployment of the National Urban 
Search and Rescue (US&R) teams to Haiti. These lessons include 
being able to achieve flexibility in deploying these large 
teams, how to effectively employ the dogs to find survivors, 
and the need to use our teams as force multipliers by 
organizing like teams made up of survivors or others.
    Our 28 Urban Search and Rescue task forces will need to be 
augmented in a major earthquake who are working with the 
Department of Defense (DOD) to train and use the National Guard 
as an organized force to serve as light urban search and rescue 
teams.
    Effectively and rapidly responding to and recovering from 
the impact of a catastrophic earthquake is one of the greatest 
challenges faced by the whole community. At FEMA we recognize 
success depends on collective and collaborative efforts of all 
dimensions of our society.
    I look forward to working with the Members of this 
Subcommittee and Members of Congress to address the 
requirements of a catastrophic earthquake or other large 
disaster. Sir, subject to your questions later, that concludes 
my briefing.
    Senator Pryor. Thank you. Mr. Dijkerman.

      TESTIMONY OF DIRK W. DIJKERMAN,\1\ ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Dijkerman. Can you hear me? Oh, great. Thank you, 
Chairman Pryor. We really appreciate the invitation to come to 
testify about earthquake preparedness and what the United 
States can potentially learn from some of our experiences. I 
appreciate that you will be putting the written testimony into 
the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dijkerman appears in the appendix 
on page 39.
---------------------------------------------------------------------------
    As you commented, the earthquake in January in Haiti killed 
230,000 people and displaced and disrupted the lives of another 
three million. Right after that, one of the good steps was that 
President Obama designated USAID Administrator Rajiv Shah as 
the United States Disaster Coordinator, and he committed the 
United States would provide a swift, aggressive, whole of U.S. 
Government response.
    And in that effort, USAID coordinated the efforts of a 
number of U.S. Government agencies, including the Department of 
State, Health and Human Services (HHS); Homeland Security; and, 
of course, our colleagues here from FEMA.
    I think you are probably aware that FEMA and USAID, 
particularly the Office of Foreign Disaster Assistance, have 
had a long relationship sharing lessons back and forth, and we 
can give you some of the historical lessons as well. But I will 
focus more on some of the more recent findings that we have 
had.
    But anyway, back to Haiti, to date we have delivered over 
$1.14 billion. In the first 2 months of the Haiti earthquake, 
we sent and delivered about $250 million quite quickly, and I 
am going to come back to how we did that and why. But what is 
also significant here is in Haiti, we had our colleagues from 
Chile sending a search and rescue team, helping us out and 
coordinating with other search and rescue teams from around the 
world.
    But about 2 months after the Haiti earthquake, as you 
mentioned, the earthquake in Chile struck. I think it ranks up 
there as one in a century-type earthquake, but there, as you 
noted, the impact was very much different. USAID has had a long 
relationship with the national office in Chile responsible for 
preparedness, and because of that, we were able to take our 
directions from the Chileans on what to do and they were able 
to guide us and the international community.
    I think it is a very strong lesson on the impact of 
preparedness, not only in terms of the disaster response, but 
also working it through the system where they came up with more 
rigorous building codes, but then they also implemented it, 
which is, perhaps, even more important than just defining the 
improved codes. I will let my fellow panelists go into it in 
much more detail.
    So, first, what are some of the lessons that we talk about? 
One, we have learned over and over again, and even in Haiti and 
in Pakistan, is that we can have a very small footprint, but 
still have a very huge and rapid impact by utilizing existing 
in-country relationships as force multipliers.
    As I said earlier, we delivered about $254 million within 2 
weeks and we did that by sending out what we call our Disaster 
Assistance Response Team (DART) that had about 34 members. But 
we had tapped into our existing relationships with many non-
governmental organizations and United Nations agencies on the 
ground, who in turn had reached back to the rest of their 
organizations throughout the world to bring in what we needed.
    This obviously, our number of 34 people for USAID, did not 
include the 500-plus members that were brought in from search 
and rescue and the 20,000 military folks that were also brought 
in. But focusing on the resources we delivered and focusing on 
the fact that we used these non-governmental organizations, it 
gives us a couple of advantages.
    One, as I said, force multiplier, but two, because they are 
there, they immediately start helping us try to maximize the 
extent to which we can make sure the assistance is locally 
attuned to the cultural challenges and circumstances there. I 
know the United States is not as diverse a difference between, 
let us say, Haiti and the United States, but being culturally 
attuned is always a challenge.
    Now, the other point is that we, as USAID, again different 
from FEMA, do not implement. We implement through people. But 
we do keep ourselves on the ground right next to everybody 
else, closely monitoring, making adjustments, and issuing new 
grants as we go. And that is part of how we stay on top of it, 
and, if you will, move a fair amount of resources.
    This model that we use is very flexible. In Haiti, we had 
34 people addressing, if you will, a caseload of up to three 
million people affected. Right now in Pakistan, which is being 
affected by a flood we have about 17 people on our DART 
addressing and trying to address the caseload of between 16 and 
20 million people. Again, we are using the same structure and I 
think it has been fairly effective there to move almost $300 
million in a fairly short period of time.
    The second lesson I would want to mention is that we are 
learning that the single chain of command, which we normally 
use, is not good enough and we have to scale it up, and here, 
we are actually learning from some of what FEMA has done and we 
are trying to make the whole of U.S. Government response a bit 
more comprehensive and work more on where the resources are 
going to come from and how we can do this.
    The last thing that I would point out is that we are 
focusing on a lesson about the technical teams that we send 
out. They have to be small, nimble, mobile. We need to get them 
up to and familiar with international standards, and a benefit 
like this will also help if they come in to help us in the 
United States.
    So let me stop there and thank you very much for inviting 
us.
    Senator Pryor. Thank you. Ms. Chan, you are not going to 
testify, as I understand it, but will be available for 
questions and we appreciate that.
    Mr. Lira, we again thank you for being here. I do not want 
you to feel constrained by the 5-minute rule since you have a 
presentation and since you have traveled such a great distance 
to be here. Go ahead and give us your presentation.

   TESTIMONY OF CHRISTOBAL LIRA,\1\ DIRECTOR, COMMITTEE FOR 
    EARTHQUAKE AND TSUNAMI EMERGENCY (MARCH-AUGUST, 2010), 
RECONSTRUCTION COMMITTEE (SINCE AUGUST, 2010), CHILEAN MINISTRY 
                          OF INTERIOR

    Mr. Lira. Good morning Mr. Chairman. It is an honor and a 
privilege for me as the Director of the Reconstruction 
Committee of Chile, to be here at the U.S. Senate for sharing 
with you the Chilean experience on how we faced the devastating 
February earthquake. Thank you for calling me to this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lira appears in the appendix on 
page 45.
---------------------------------------------------------------------------
    Committee of Chile, to be here at the U.S. Senate for 
sharing with you the Chilean experience on how we faced the 
devastating February earthquake. Thank you for calling me to 
this hearing.
    In this opportunity I would also like to thank the U.S. 
Government, the U.S. Senate, and all the people in this country 
that helped Chile during those difficult times.
    In my presentation, I would like to talk about three main 
topics, earthquake and tsunami impact, government reaction and 
organization, initiatives in place and learning captured. First 
of all, I will try to show you how big this emergency was and 
the consequence it had for our people and our economy.
    As you can see, this was the fifth strongest earthquake 
registered until now. The total loss was 14.9 percent of the 
gross domestic product (GDP), a huge loss for our economy. 
Image can say a lot about what happened in our country. This 
image shows the island of Juan Fernandez before and after the 
tsunami. This image shows Talcahuano port in the south, one of 
the most important ports in the country. Here you can see our 
main highway in the city of Santiago and all the damage caused 
by the earthquake.
    A bridge, 200 kilometers south of Santiago, before and 
after the earthquake. This is the town of Dichato before and 
after the tsunami. The picture shows the Alto Rio building in 
Concepcion after the earthquake. Here we can see the enormous 
impact of the earthquake and tsunami, in all, 521 fatal losses, 
56 disappeared, 370,000 destroyed houses, 73 destroyed 
hospitals, 3,049 destroyed and damaged schools, 1,250,000 
children out of school, 221 destroyed and damaged bridges, 900 
towns. Here you have an open view of the damages by sector in 
the economy. As I say before, it was 14.9 percent of the 
country's GDP.
    Now I am going to talk about the government reaction to 
this emergency and how it organized to respond and deliver the 
necessary solutions. The most important thing is that we 
started simultaneously to attend the emergency and also 
starting the reconstruction efforts.
    As you can see here, two committees were created, the first 
one to respond to the emergency and the second to start working 
in the reconstruction. The emergency committee recruited around 
10 people from the private sector to work temporarily in this 
committee. These people continued to receive their wages from 
the companies where they used to work. This help from the 
private sector and an emergency law that made it easier to buy 
and deliver help was fundamental for the success of the 
emergency committee in a very short period.
    We worked in coordination with the armed forces and the 
Office of Emergency of the Interior Ministry (ONEMI). Also, 
very coordinated with a new authority, especially the regional 
governments.
    The armed forces were very important in two stages of the 
emergency, first, working to restore the public order that was 
missing after the earthquake, and second, changing their guns 
for tools to help to build emergency houses and remove debris 
from the street. That is the first stage and then they changed 
their guns to tools.
    A fundamental aspect to have permanent knowledge of the 
situation and deliver fast and adequate solutions was that the 
government worked permanently in the field, distinguishing 
their people with colorful red jackets so the people recognized 
us and talked to us and cried with us.
    Since the beginning of the government, we have worked 
together with McKinsey Company trying to have a good diagnosis 
of what worked well and what did not work during this 
emergency. I would like to share with you these learnings and 
how we are working to be better prepared when the next 
emergency comes.
    We have the seismological and telecommunication 
infrastructure. Communications were down for more than 12 
hours. Sensors took more than two hours to provide the 
information. So we are working on investments in real time 
monitoring process and robust telecommunication systems with 
multiple backups.
    Issuing alarms process. Process to issue an alarm involved 
unclear communication protocols, multiple unnecessary decision 
points, and no use of mass communication channels. We are 
working on clear communication protocols, single responsibility 
for decision, and use of mass communication channels.
    Emergency task force. We do not have a force dedicated to 
help in initial evaluation of damage, nor specialized in 
emergency procedures. So we are developing an army emergency 
task force specialized in emergency procedures.
    Chain of command. No clear chain of command in place, too 
many direct reports organized by institution instead of 
functions, and leadership duplicity. We are working on no more 
than eight direct reports organized by function and single 
leadership.
    The war room dynamics. Unrestricted access, everybody 
sitting around the same table randomly, and press with direct 
access to everything. We are working on restricted area access, 
decision makers in one table separated from support staff in 
separate tables grouped by functions.
    Looting. Heavy looting began 18 hours after the earthquake. 
Procedures to deploy armed forces to ensure safety in the first 
hours of the emergency.
    But we also learned from the good things we had in place. 
You hear about the 600 people that died in Chile compared with 
Haiti. The first thing was the population knowledge. Chile's 
coastal population have a very good understanding of the need 
to evacuate in the event of any big earthquake. The second 
thing was the lack of fires. Chile's energy network shuts down 
automatically in the event of any major earthquake. It is 
difficult to be without light, but also without fire.
    And the robust civil infrastructure. Chile construction 
norm and developers being responsible for more than 10 years 
provided a civil infrastructure that was able to protect 
Chilean citizens overall.
    So also, I would like to give you some materials. You will 
have more information on the topics I have talked about before, 
a copy of the Sustainable Reconstruction Plan of Constitucion 
City, an example that we have there, so you can see how we have 
been developing a reconstruction plan since the beginning of 
the government. That plan takes about 1 year to develop and we 
do it in 4 months.
    Information about the Onemi, the Chilean Emergency Office, 
and how they are working in the prevention, response, and 
recovery for future emergencies. I will also give you a 
presentation from the Minister of Finance where you can find 
more information about the costs that this emergency implied 
for our economy, and how the government is preparing to finance 
these costs. And the final daily report from the Emergency 
Committee where you can find details about the aid delivered in 
the area affected by the earthquake and tsunami.
    I am pleased. Feel free to ask anything, other information. 
I would like to invite the Senators to visit us. It will be an 
honor to show you personally all the details in the field. 
Thank you very much, Senator Pryor.
    Senator Pryor. Thank you for your statement and your 
presentation.
    Mr. Carwile, let me start with you, if I may. Just in 
general terms, if you were going to grade the Federal 
Government right now on our preparedness for a big earthquake, 
wherever it may occur in our country--how would you grade us on 
our preparedness?
    Mr. Carwile. Mr. Chairman, I would probably give us a B. I 
think we have made great progress in the last year and a half 
or so with regard to building on regional and state plans. Sir, 
we are kind of a bottoms-up constitutionally, so through 
Congress's grant programs that we administered on our 
preparedness side of the house, we have seen some significant 
increases in state and local capacities for a major event.
    I think on my side of the house, on response recovery, we 
have done a lot more coherent planning with our regions and 
States. It occurred to me when I came back to government about 
18 months ago that there has been sort of a centralization here 
in Washington of planning efforts, which was OK at the Federal 
level, but when you really have to implement them, it is down 
to a state and a regional level. So I think we are moving along 
very well.
    I do believe that the National Level Exercise 2011, which 
will be on the year anniversary of the terrible New Madrid 
earthquake you described, sir, will give us an opportunity to 
grade that preparedness a lot better than we can right now.
    Senator Pryor. Good. And let me ask the follow-up. You 
mentioned State, local, and I will throw in private sector. How 
would you grade the State, local, and private sector on their 
preparedness?
    Mr. Carwile. Let me start with the private sector. We have 
been reaching out to the private sector, actually to some folks 
in your home State, Bentonville, and some other folks around 
the country. In many ways the private sector is ahead of the 
government. I know that some of the large corporations have 
incredibly robust continuity of operations plans for their 
business model. But we have entered into partnerships with them 
to a much greater degree than we ever.
    Last Monday, for example, we had 60 members of both 
associations and corporations at FEMA headquarters to discuss 
not only what can the private sector do for us, where can we 
buy from them for survivors, but what can we, as a government, 
do to help them get back up and operational. So I think the 
private sector pieces are working well.
    We had included them, as well as our volunteer agency 
partners, into several thunderbolt exercises. Those are 
exercises that Administrator Fugate started when he came to 
office. There is no notice. We brought in the private sector 
and the volunteer agencies to a much greater degree.
    We have also established a seat, and we went through some 
issues with our legal folks, but we have a seat now at the 
National Response Coordination Center (NRCC) for a member of 
the private sector and is going to rotate. Right now Target has 
that seat, but they will represent folks in Bentonville and all 
the other private sector folks. So we have partnered with them 
much better.
    On the volunteer agency side, we have a tremendous 
relationship with the National Volunteer Organization's Active 
in Disasters (VOAD). They cover not only the big--the American 
Red Cross, Salvation Army--but a lot of the smaller volunteer 
agencies that are so critical to helping our survivors during 
the time of disasters.
    So that partnership between government and state and local 
level, as well as here at the Federal level is extremely 
strong. Some States have entered into relationships. Louisiana 
has. Texas has. I know Dave Maxwell in Arkansas has entered 
into--he has a very strong relationship with the private sector 
there. They were part of a rehearsal of a drill they had 
yesterday in North Little Rock. The private sector 
participated. It has to do with New Madrid planning. The 
feedback from that yesterday was great.
    So I think we are in much better shape. That is why 
Administrator Fugate has been pushing the idea of whole 
community, not just the Federal Government or state and local 
governments, but also our partners in the private and the 
volunteer agency sectors, sir.
    Senator Pryor. Good. And you witnessed the terrible 
earthquake down in Chile and it seems to me that they did a lot 
of things right before the earthquake happened that paid huge 
dividends when it actually occurred.
    Mr. Carwile. Yes. In looking at Senor Lira's slides, a lot 
of the things they were doing well are things that we are 
trying to do as far as a knowledge of the people, working with 
our private sector partners in the energy field.
    But also on the right side of the slide, some of the things 
that we are trying to do, one of my colleagues in the rear 
said, some of the organizational construct, which we have 
adopted are the National Management System and the Command 
System, to alleviate some of the duplication of efforts. I 
think we do that pretty well now.
    I happened to have been the Federal Coordinating Officer in 
Hurricane Katrina in Mississippi with Governor Barber, and 
there, with his team, the state team, we formed a unified 
coordination group and worked with the state and local partners 
down at about the county level to create division supervisors 
under geographic branches. So we were able to set the 
priorities based on Governor Barber's direction, of course, and 
have some unity of effort.
    So I saw a lot of things that we have been working on in 
Senor Lira's slides.
    Senator Pryor. One of the things in Mr. Lira's statement 
that struck me is that the general population has a knowledge 
level, about what to do and what not to do in the event of an 
earthquake. How are we doing in that area?
    Mr. Carwile. I think we have some work to do, sir.
    Senator Pryor. My sense is, if you are living in 
California, it is more something you live with every day.
    Mr. Carwile. That is right. I was able to speak in Kobe, 
Japan a couple of years ago on the anniversary of the Kobe 
earthquake, and in Japan, they teach children in school--we 
used to do it in the Cold War--a duck and cover and all that. 
Children know, if they feel a shake, they go to high ground.
    I think in California, where I have lived in the past, 
there is a lot more cognizance of that. I do not think we do as 
well in other parts of the country, and I know that Jim 
Wilkinson from Central United States Earthquake Consortium 
(CUSEC) is going to speak on the next panel, and Jim is doing a 
great job through the Earthquake Consortium of the Central 
United States to try to do that outreach work. I think he can 
probably answer that question, how we are addressing the 
central part of the country, a little bit better. But I think 
California is probably leading the way, sir.
    Senator Pryor. Mr. Lira, how does Chile let the general 
public know what to do in the event of an earthquake, how to 
prepare beforehand and how to handle things when the earthquake 
actually happens? How has your country done that?
    Mr. Lira. Well, we have some simulations that we do in the 
cities. I gave you some examples of that in the information 
that I sent you before. So there we work--the last one I 
remember in Iquique, the city, it was about 100,000 people 
moving in a simulation for an earthquake and tsunami.
    So in that, you can see it in the news, in the television, 
so all the people know so that after an earthquake, it is very 
probable that you will have a tsunami. So at 3 a.m., the people 
run away to the mountains, to the hills behind the cities. That 
is why we have only about 600 people died.
    Senator Pryor. Wow. Well, that education certainly has paid 
off.
    Mr. Carwile, I know that we have a large scale earthquake 
exercise planned for 2011. What dates will that run in 2011?
    Mr. Carwile. That is in May, sir. I will get back on the 
exact dates.
    Senator Pryor. OK. And I think a lot of times we make sure 
that our first responders are involved and our hospitals know 
what to do. We plan scenarios such as what if this bridge goes 
out and all of that is good for local law enforcement. But will 
part of the large scale exercise include educating the public 
on what to do and will the public have more awareness about the 
exercise?
    Mr. Carwile. Absolutely, Mr. Chairman, and we are 
providing, through our Hazard Mitigation Grant Program (HMGP), 
some resources to the States to do that outreach, as well as 
working with those four consortium that are doing outreach all 
the time. But part of the exercise will be the education of 
folks through a strategic communications part of the exercise.
    Senator Pryor. Great. Mr. Lira, let me ask you follow-up 
question on that. It sounds like your preparation went well, 
but if you could go back and change one thing before the 
earthquake, and do one thing differently, what would that one 
thing be?
    Mr. Lira. Probably the war room. We have to--we are working 
on that war room again. We need less people working there 
because if you have 40 people inside a war room, of course, it 
is very difficult to make decisions.
    Senator Pryor. Right.
    Mr. Lira. That is why one of the things that I would like 
to define very clear for a future earthquake is how has to be 
this war room, what people must be there, how you organize the 
other people, the function people in a separate room. That is 
something that we have to work and pay strong--and also, the 
first impression.
    We need a team, a task force that goes with a helicopter 
and immediately goes through all the affected area and so we 
can know what is happening, real, because at 5 a.m., the 
television was saying, ``No, we do not have any risk of 
tsunami,'' when the tsunami was there. That is why nobody knows 
in that night. So we need that task force that works only 
looking, what is happening. That is both things that I think we 
have to work on for the future.
    Senator Pryor. Great. Well, that is helpful. Did you jot 
that down, Mr. Carwile? I saw you writing notes. That is good. 
I am glad.
    Mr. Dijkerman, Ms. Chan, I have not forgotten about you 
all, so let me ask a couple of questions. I know that, Mr. 
Dijkerman, you work around the world and try to be there for 
other countries when we provide assistance abroad. I know that 
you work in a lot of poor areas around the globe. We have some 
poor areas in this country as well.
    What is your impression about areas in our country, whether 
they be inner cities or rural areas or just places like Indian 
reservations, etc? Do you think that they will be hit 
disproportionately hard because of the poverty or do you think 
that is much of an issue in this country?
    Mr. Dijkerman. Well, one of the advantages of having spent 
a lot of time overseas is, I think, I almost know that better 
sometimes than the United States.
    Senator Pryor. Right.
    Mr. Dijkerman. So please recognize that limitation. But one 
of the differences that we find, if people have lower incomes, 
is that they have lower other resources and opportunities to 
cushion themselves for unforeseen circumstances, whether it be 
floods or earthquakes or droughts or you name it. And so, 
because their cushion is much smaller, the impact is much more 
devastating. So that is a reality that we look at.
    And one of the things from that we focus on, not only in 
focusing on saving lives, but we focus, first and foremost, on 
the very elemental aspects of saving lives: Getting water, 
getting essential medicine there, particularly for women and 
children, because some of those groups are the first to start 
suffering.
    And then when we talk about shelter, our immediate response 
efforts are very, very basic. Tents, things like that, or for 
water, water bladders. So we try to accommodate the fact that 
we have to respond all over the world with very basic 
commodities that can immediately start saving lives. As Bill 
mentioned, it is very important to start saving lives in the 
first 72 hours.
    Senator Pryor. As you work with other countries, do you try 
to go in before disasters happen and help them prepare? Is that 
part of your mission?
    Mr. Dijkerman. Absolutely. That is an investment that we 
have tried to carve out from our first responsibility of being 
9-1-1. But we have, at times, been able to spend up to 20 
percent of our budget, when we have been fortunate enough to 
not have too many disasters, to try to divert towards what we 
call conflict prevention and mitigation.
    So, for example, in Latin America, we have trained over 
30,000 first responders and government officials with us, not 
only that we are training them, but that we work together so 
that when something happens, there is already an established 
familiarity between the groups. So in the case of Chile, the 
people we sent down there already knew some of the officers in 
the operation and we knew what they were capable of and we 
could just stand on the sideline and wait for directions.
    In other places, we do not have that depth of capacity and 
we have to make some investments in potentially shoring that 
up. But the investments that we have made just makes it simply 
a lot easier for when something happens.
    I recall, about a year ago, when we had the earthquake in 
Guatemala, it hit, the Guatemalans activated their service, we 
went there. They say, ``Hey, come on in.'' We were inside the 
hard wall in the war room and they were just working away and 
we said, ``Are you ready, do you need something?'' They said, 
``No, I think we have it.'' We said, ``Great.''
    But that familiarity in processes and procedures just makes 
the response time less. So had there been a need for us, I 
think we could have responded much more quickly.
    Senator Pryor. That is great. And you or your team spent a 
lot of time in Haiti as well?
    Mr. Dijkerman. Yes.
    Senator Pryor. I guess that would be an example of where 
you see how poverty works as a big disadvantage to an area and 
you get into things like building codes, etc, that they just 
did not have; whereas, in Chile, they have had a long history 
of enforcing seismic building codes.
    One thing that I am a little bit concerned about and you 
may not be able to comment on this is that building codes 
differ so much from area to area in the United States.
    My experience is that if you have an economically depressed 
area, they may not pay as much attention to something like a 
building code in order to try to get a business to locate 
there, as compared to some places doing better economically and 
that have the luxury of thinking about things like seismic 
building codes. Do you have any impressions on the disparities 
within the United States or is that just not your area?
    Mr. Dijkerman. That is beyond my area of expertise, but I 
will say the point I emphasized earlier, which is the one that 
really matters, is what Chile demonstrated is not only putting 
the building codes in place, but for me what is much more 
important is implementing them.
    What we often find in the first instances in working with 
other countries is it is easy to put the plan together or it is 
easy to identify what needs to be done. But the much more 
difficult task is to do the education of the population, the 
enforcement of the building codes. And even with doing that, 
there are still going to be gaps and limitations. But the key 
focus that we try to get at is execution of what you have 
decided to try to do. That is almost more important and maybe 
that is some of the issues that might be present here. I will 
let my colleague from FEMA talk.
    Senator Pryor. Did you have something to say about that?
    Mr. Carwile. I would say that the mitigation efforts in 
building codes and standards of both adopting and implementing, 
as Dirk talked about, Mr. Chairman, are critical. We work very 
closely through the National--we are part of the National 
Earthquake Reduction Program (NERP) as well as the 
international body that establishes codes, but it is a State by 
State, in some States it is by county, and you are right.
    In the poorer counties--I happened to be working in a 
southern State in a large disaster and we started talking about 
codes and standards and there were not any. But if you look at 
the difference between--we just had a major earthquake in 
Christchurch, New Zealand, in which no lives were lost, but 
they adopted very stringent building codes and standards. I 
think that probably contributed to saving a whole lot of lives. 
But it is a very important issue in terms of earthquakes. I 
cannot think of anything more in preparing for the population 
is incredibly important, our ability to respond with the 
government and private sectors as far as these building codes 
are what really are going to save lives on the front end.
    Senator Pryor. Right. And, Ms. Chan, I am not going to let 
you off the hook here. I do want to ask you one question to see 
if you can enlighten us on this. My understanding is, at last 
count, there were nearly a million people displaced in Haiti. 
My understanding is a lot of them are living in tent cities or 
some sort of makeshift housing. Does USAID continue to have a 
presence in Haiti? And at this point, given the scale of the 
disaster, what is our mission there right now?
    Ms. Chan. Yes. USAID has a very strong presence there, not 
only with our team on the ground, our Disaster Assistance 
Response Team, but working very closely with the USAID mission 
and with the State Department. It is a whole government effort 
working towards trying to build back livelihoods. There is a 
focus on, again, trying to do reconstruction and getting people 
out of the displacement camps.
    The Department of State is working very closely also with 
President Preval. So, I think, in essence, the overall vision 
is to help people build back their lives at this point.
    Senator Pryor. Good. I want to thank all of our witnesses 
on the first panel. You all have been great. What we will do is 
leave the record open for a couple of weeks. There are some 
Senators who are not here today that have expressed an interest 
in various aspects of earthquake preparedness. You may want to 
expect to get a few questions from the Subcommittee over the 
next few days, and we would love to get responses back. We will 
also put your presentations in the record. Your comments have 
been very helpful. I will go ahead and introduce our second 
panel. Thank you very much.
    Mr. Carwile. Thank you very much.
    Ms. Chan. Thank you.
    Mr. Lira. Mr. Chairman.
    Senator Pryor. Yes, sir.
    Mr. Lira. Only to say, again, thank you very much for 
calling me to this hearing, and also, thank you again for all 
the Americans that help us, especially some institutions like 
the Army, the Air Force, FEMA that is here, and USAID, the 
American Red Cross that was there, and all the Americans that 
helped us----
    Mr. Lira [continuing]. Like the government designator. 
Thank you very much.
    Senator Pryor. Well, thank you. You guys have always been a 
good neighbor as well and we appreciate you being here because 
you are helping us now by letting us see the results of your 
planning and your operations in Chile and learn lessons from 
you. So thank you very much for being here.
    Mr. Lira. Thank you.
    Senator Pryor. All right. I will go ahead and bring the 
second panel up and our staff will swap out the name tags and 
set up the microphones.
    I will go ahead and introduce our second panel.
    Our first witness will be Jim Wilkerson. He is the 
Executive Director of the Central United States Earthquake 
Consortium.
    Our next witness is Ellis Stanley, Vice President and 
Director of Western Emergency Management Services at Dewberry 
and Dewberry brings a lot to the table. We look forward to 
hearing from you, Mr. Stanley.
    And then our last witness today will be Dr. Reginald 
DesRoches, Professor and Associate Chair of the School of Civil 
and Environmental Engineering at the Georgia Institute of 
Technology. Thank you all for being here. I appreciate your 
time, preparation, and effort to get here today.
    Mr. Wilkinson, we will lead off with you.

TESTIMONY OF JAMES M. WILKINSON,\1\ EXECUTIVE DIRECTOR, CENTRAL 
              UNITED STATES EARTHQUAKE CONSORTIUM

    Mr. Wilkinson. Thank you, sir. First let me express my 
sincere thanks for the invitation to come and join you today 
and share my thoughts on the earthquake hazard and the risk in 
central United States
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wilkinson appears in the appendix 
on page 73.
---------------------------------------------------------------------------
    Earthquake hazard in the central United States has a couple 
unique issues that elevate this hazard to a point that is 
considered to be catastrophic if the right variables were to 
align themselves. First, that the geology allows for a very 
large area of influence. The seismic waves from earthquakes 
carry for great distances before they dissipate. This is well-
documented, both historically and for current seismicity.
    Rather than being constrained by one felt area, the effects 
are commonly reported over a 10-, 15-, even 20-State area. 
Damage from an April 18th 4.8 event of 2008 was recorded in 
three States, thankfully not at a level to be significant. Had 
this been a magnitude 5 or greater, the outcome would have been 
most likely very different.
    The other unique issues with earthquakes in the central 
United States is the sequencing of large events like those of 
1811 and 1812, meaning that rather than a single main shock 
followed by some number of aftershocks, we experience several 
main shocks spread over a period of time, each with their own 
series of aftershocks. This has been documented to have 
occurred in 1811, 1450, 900 A.D., as well as 2350 B.C., also 
supporting the fact that the events of 1811 and 1812 were not a 
one-time event.
    These unique aspects, coupled with the fact that the United 
States has not built with earthquakes in mind until most 
recently, and the fact that we have a large percentage of old 
and aging infrastructure has created a situation that would be 
truly catastrophic. But it does not stop there.
    There are cascading effects with the impact either from the 
shaking or liquefaction or both that would also have additional 
secondary losses to oil and gas pipelines that run through the 
central United States; electrical grid, which also happens to 
service a large portion of the north and eastern United States, 
including the District of Columbia; as well as impact to 
commerce, loss of highways, bridges, river systems, 
agricultural farming, and ports.
    I have described but a small sampling of the issues that 
make the seismic hazard associated in central United States a 
significant issue. With a hazard that presents such a daunting 
picture, it is easy to see how addressing it would present 
significant challenges. This is not your garden variety hazard. 
The complexity for dealing with a hazard affecting multiple 
States, Federal regions, make this an area that requires a 
strong collaborative approach from all levels of government as 
well as the private sector and citizens alike.
    While there is nothing we can do about the hazard, there is 
good news. The risk can be addressed, the steps can be taken to 
reduce that level of exposure, but there has to be a 
willingness to work towards that goal. A strong public 
awareness and educational effort is key, in combination with an 
aggressive mitigation program.
    This does not mean we have to turn away from the 
development of strong response and recovery plans. On the 
contrary, we need to be working towards a balanced approach 
that supports all program areas working together to make our 
communities safer and more responsive to future seismic events.
    In addition to day to day program efforts of the National 
Earthquake Hazard Reduction Program (NEHRP), CUSEC has been 
working in partnership with FEMA and a host of others for the 
past 4 years on a focused effort to revise and, in many cases, 
develop new earthquake response plans at the local, State, 
regional, and national levels. We will test these plans in 
April of next year in a multi-state, multi-regional national 
level exercise in order to identify any gaps which have been 
identified and improve on those.
    The exercise is one of many planned bicentennial events in 
observance of the 1811/1812 earthquakes. Other significant 
events will include the Great U.S. Shakeout, which is an 
earthquake drill, and various planned earthquake program 
training and other outreach activities.
    In closing, addressing earthquake risk in the central 
United States is not a function of one organization or 
governmental agency. The issue requires a comprehensive 
approach involving citizens, community leaders, Non-govermental 
organization (NGOs), as well as the private sector and many 
others working with state and national levels of government. 
Unless we improve on our abilities to work together, putting 
aside our programmatic and organizational differences, we will 
be faced with sporadic and marginal improvements and 
ultimately, communities less prepared to address a major 
earthquake.
    As Executive Director of the Central United States 
Earthquake Consortium, it has been my special honor for me to 
have the opportunity to share with you my thoughts concerning 
the earthquake threat in central United States
    Senator Pryor. Thank you. Mr. Stanley.

    TESTIMONY OF ELLIS M. STANLEY, SR.,\1\ VICE PRESIDENT, 
DEWBERRY; DIRECTOR OF WESTERN EMERGENCY MANAGEMENT AND HOMELAND 
                       SECURITY SERVICES

    Mr. Stanley. Chairman Pryor, thank you so much for having 
us here to speak to you before this Subcommittee on Earthquake 
Preparedness-What the United States Can Learn from the Chilean 
and Haitian Earthquakes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stanley appears in the appendix 
on page 81.
---------------------------------------------------------------------------
    How a government responds after a disaster usually captures 
the headlines. But most often it is the role that government 
plays in preparing for these types of events that can be the 
single biggest factor in minimizing not only the event's 
initial toll, but also the recovery time necessary to bring a 
community back to a healthy functional State.
    In this regard, an examination of how the government of 
Chile responded during the immediate aftermath of the 
earthquake and related tsunamis is appropriate. I will also 
address how Southern California differs from a lot of these 
incidents in their preparedness.
    Our findings reinforced the importance of our pre-disaster 
relationships with all of our governmental, non-governmental, 
and community partners, including the private sector. Properly 
done, these relationships require an organizational commitment 
as well as a significant investment of time and personnel. The 
number and complexity of these relationships will vary based on 
local nuances. But as a general rule, it is vital to ensure 
active participation in disaster policy and planning and 
response and recovery activities at all levels.
    It was no surprise to learn that the areas of Chile that 
made the most effective use of resources were the very areas 
where some level of interaction had been ongoing before the 
earthquake. In the interest of time, I will just give some of 
the overall findings and ask that the rest be submitted for the 
record.
    The previous panel talked about the people's knowledge. We 
dub that culture of resilience. What we saw in Chile was people 
had resilience that they did not even know they had. For 
example, there were fewer lives lost in the tsunami area simply 
because they had been taught that if the earthquake shakes 
enough to knock you off your feet, move to higher ground. They 
did not have to wait for the government or anyone to give them 
signals.
    We also learned that they have a compulsory military, and 
even though they do not see that as emergency planning, it was 
planning that helped them to be resilient. Volunteers in Chile 
tend to be very resilient. They are able to work effectively 
with little or no direction from the national headquarters. 
This has been part of the reason that they were able to do so 
well.
    Some of the recommendations for improvement that we took 
away is that emergency plans need to be flexible and include 
alternative options in case primary plans are unable to be 
executed. That sounds simple, but so often we do not do the 
backup to the backup to the backup. All volunteer leadership at 
all levels need to know the emergency plan. Exercises need to 
be done on a regular basis with everybody participating.
    Involve local officials in regional planning as well. 
Perform a realistic assessment of life-essential systems such 
as water or emergency medicine and supplies. Personnel should 
be trained in the probability of core services not being 
available and exercise that.
    Personnel conducting comprehensive exercises including 
joint government, private sector, NGO, emergency responder, and 
community exercises before an incident is paramount to 
surviving and thriving. Individual resilience and effective 
networking with local partners are vital to the continued 
success of the community after a disaster. Education, 
education, education about what happens during the event is 
important.
    Emergency and earthquake professionals should work with 
representatives of print and broadcast media before a disaster 
to determine how best to serve. We are doing this in Southern 
California with the Great ShakeOut in which 6.8-plus million 
people are involved. Emergency plans need to be redundant. I 
have said that twice because it needs to be redundant. We need 
to keep doing that.
    Recognize that competing personal and professional demands 
will be made on an organization. And organizations need to plan 
for non-structural damage and potential evacuation. We need to 
recognize vulnerabilities in our communication systems and we 
have been talking about that since September 11, 2001. We need 
to explore mechanisms to encourage building owners to adhere to 
rigorous building codes.
    We need to collect all possible data for each disaster when 
it happens. It took the 33 Long Beach earthquake to design 
schools to a higher standard. It took the 71 San Fernando 
earthquake to design hospitals to a higher standard. What will 
it take to design tall, high occupancy buildings to a higher 
standard? Those are some of the things that we need to look at.
    We need to look at what are acceptable collapse rates for 
new buildings and who determines what that will be. And we also 
need to get the public involved in helping to make these 
decisions. Thank you very much.
    Senator Pryor. Thank you. Dr. DesRoches.

    TESTIMONY OF REGINALD DESROCHES, PH.D,\1\ PROFESSOR AND 
  ASSOCIATE CHAIR, GEORGIA INSTITUTE OF TECHNOLOGY, SCHOOL OF 
              CIVIL AND ENVIRONMENTAL ENGINEERING

    Mr. DesRoches. Thank you, Mr. Chairman. Thanks for the 
opportunity to come here today to testify about earthquake 
preparedness in the United States My testimony will highlight 
the risks associated with a potential catastrophic earthquake 
event in the United States and address the opportunities to 
improve infrastructure resilience.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. DesRoches appears in the appendix 
on page 87.
---------------------------------------------------------------------------
    My perspective is that of one who has studied earthquakes, 
first as a student in California during both the 89 and 94 
earthquakes, and subsequently as a professor at Georgia Tech 
where I focus on the earthquakes in the central and 
southeastern United States More recently, I have worked 
extensively in Haiti since the January 12, 2010 earthquake, 
having led a team of 28 engineers, scientists, and planners to 
study the effects and survey building damage in Port-au-Prince. 
I might add that I was born in Haiti and lost family during the 
earthquake event and I am committed to seeing Haiti be more 
resilient and moving forward.
    The Haiti earthquake is likely the most catastrophic 
natural disaster in modern times, particularly when viewed on a 
per capita basis. The magnitude 7 earthquake resulted in over 
250,000 deaths, 300,000 injured, over a million displaced, 
250,000 homes destroyed, and critical infrastructure 
particularly damaged. In contrast, the much larger 8.8 Chile 
earthquake resulted in less than 600 deaths and much fewer 
injured.
    There are numerous reasons for the differences in the 
outcomes. However, there is no doubt the advanced level of 
seismic design and preparedness in Chile compared to Haiti is a 
primary contributing factor to the significant differences 
observed between the two earthquakes.
    Chile has a long history of large and frequent earthquakes. 
Because of this history of large and frequent earthquakes, 
Chile has been diligent in ensuring its buildings and other 
infrastructure are designed according to updated seismic design 
codes. On the contrary, Haiti had not experienced a major 
earthquake in over 200 years, and therefore, was not prepared 
for the earthquake that struck on January 12.
    There are several regions in the United States that have a 
history of large, but infrequent earthquakes, and therefore are 
not prepared in terms of appropriate building designs and 
earthquake details. We have heard many people today talk about 
the New Madrid Seismic Zone (NMSZ). In addition to that, the 
Charleston region, Charleston, South Carolina, is also a region 
of large, but infrequent earthquakes. On August 31st, 1886, a 
large earthquake hit the Charleston region with an estimated 
magnitude of 7.0 that was felt along the entire East Coast.
    The primary risk of catastrophic earthquakes in the United 
States is likely failure and damage of the built 
infrastructure. Today the New Madrid Seismic Zone region is 
highly populated and densely covered with homes, commercial 
buildings, critical infrastructure such as bridges, pipelines, 
power, telecommunication systems, dams, and levees.
    Damage to these critical infrastructure systems would have 
a disastrous consequence on the regional, national, and global 
economies. It is expected that many of the bridges in the 
region, including some crossing the Mississippi, would collapse 
and be unuseable for weeks or longer. In addition, there would 
be severe interruptions to oil and gas services due to severely 
damaged pipelines.
    Such a strong earthquake would rock the entire eastern half 
of the country and prove devastating to a broad section of the 
country. A recent study by the Mid-America Earthquake Center 
last year estimates that nearly three-quarters of a million 
buildings would be damaged, 3,000 bridges would potentially 
collapse, 400,000 breaks and leaks to local pipelines, and $300 
billion in damage, direct damage, and $600 billion in indirect 
losses would occur. Similar numbers came out of a study on the 
Charleston earthquake.
    The recent studies on the possibilities of catastrophic 
failures in the case of a large earthquake in the central and 
southeastern United States demonstrates the scope of the 
problem and reinforces the need to implement measures to reduce 
seismic risk. We know that there are hundreds of thousands of 
buildings and key critical infrastructure systems that remain 
at risk of a large earthquake. We cannot prevent the build-up 
of tectonic stress along fault lines, nor can we pinpoint the 
exact moment when a disastrous earthquake will strike.
    With the leadership of the NEHRP agencies, significant 
progress has been made in our understanding of the earthquake 
hazards in the various parts of the United States as well as 
the vulnerabilities associated with different types of 
structural systems. New design codes and guidelines have 
incorporated lessons learned from recent earthquakes, as well 
as new knowledge developed from researchers and practicing 
engineers in cooperation with NEHRP agencies.
    The transfer of scientific research successes from the 
NEHRP efforts in building and design codes is one important 
step towards preparedness in the United States. Still more 
needs to be done. Small investments now can yield significant 
savings later. The California Department of Transportation is a 
good example of the return on investments from retrofitted 
bridges. Following the 1971 San Fernando earthquake, California 
Department of Transportation (CALTRANS) initiated a retrofit 
program for bridges that was deemed vulnerable from 
earthquakes. These same bridges, when subjected to the 1994 and 
89 earthquakes, performed extremely well with little to no 
damage.
    My main message to this panel is that it is critical that 
we continue to apply science and engineering knowledge to 
develop innovative technologies and designs to increase our 
earthquake preparedness. We also need to continue to enhance 
building codes and establish priorities for mitigation 
strategies that limit damage to buildings and critical 
infrastructure. Prioritized mitigation strategies can assist in 
identifying infrastructure systems that are most at risk of 
damage and/or failure so that we can begin developing ways to 
fortify them against future earthquakes. Thank you.
    Senator Pryor. Thank you. By the way, my understanding is 
they have been trying to earthquake-proof one of the bridges 
over the Mississippi River at Memphis. Is it the I-40 bridge? I 
cannot remember which one.
    Mr. DesRoches. Yes, sir.
    Senator Pryor. That is great. I am glad that they are doing 
that.
    Mr. Wilkinson, let me start with you. I am guessing that 
your primary focus for your group is the New Madrid fault area. 
Is that fair to say?
    Mr. Wilkinson. Primarily. It is earthquakes anywhere in the 
central United States, the Wabash, the East Tennessee, but New 
Madrid is the primary focus.
    Senator Pryor. And in your testimony, you gave some dates 
in which New Madrid quakes have been documented. What are those 
dates again?
    Mr. Wilkinson. The dates are 1450, 900 A.D., and 2350 B.C. 
Those were based off paleoseismic investigations of these large 
sand blow, sand areas you see throughout the Boot Hill in 
northern Arkansas.
    Senator Pryor. Does that mean that is the only time that 
they have happened?
    Mr. Wilkinson. That scale. There are many other earthquakes 
of smaller magnitude, but equivalent to the 1811 and 1812, that 
is the documented ones.
    Senator Pryor. Is there a projection or a general 
scientific consensus on when to expect the next one?
    Mr. Wilkinson. I am going out on a bit of a limb because I 
am not a geologist, but about every 500 years they seem to be 
having these larger seismic events, like 1811 and 1812. We are 
at the 200th period from New Madrid, 1811, so we are getting 
within the window that the numbers are going up.
    Senator Pryor. I think we have something that the other 
witnesses talked about as well. It is a magnitude versus 
frequency concern, and that is, if you are in a area where 
there are a lot of earthquakes, you are more sensitized to it. 
The building codes are probably better and there are better 
systems in place to handle an earthquake. But if you are in 
another area that may not have nearly as many earthquakes but 
has more severe quakes, you really may be asking for trouble.
    Mr. Wilkinson, you mentioned the National Level Exercise in 
your opening statement. I assume that you are participating in 
that already since there has been a lot of prep work happening. 
How is that going and do you think that will help our 
preparedness?
    Mr. Wilkinson. Absolutely. Ironically, we were here last 
week, the eight States that make up CUSEC. Our Federal partners 
were here working on what they call a mid-planning conference 
for that exercise. So we are well underway in reaching an 
agreement on the objectives we are going to test.
    One of the unique things that we have coupled with that 
exercise is a lead-up activity. It was referenced both in 
Ellis' and mine presentation about the Great ShakeOut. We have 
been working very closely with California to develop a ShakeOut 
for the central United States That is an earthquake drill that 
will take place on April 28 among our eight States.
    Not to put any competition in it, but Missouri and your 
folks to your north are a little ahead of us in registering for 
that. But our goal is a million participants. We really want to 
get people to understand that there are steps they can take to 
protect themselves. So we have added that as part of the 
exercise to bring greater awareness.
    Senator Pryor. Good. And you heard Dr. DesRoches' statement 
about the scenario of a New Madrid quake in terms of the number 
of bridges that might collapse and damage the oil and gas 
lines, etc. Did you want to add anything to the scenario that 
he painted?
    Mr. Wilkinson. Well, we worked very closely with the Mid-
America Earthquake Center (MAEC) in development of that 
scenario, with our state geologists and U.S. Geological Survey, 
to develop what we consider to be a credible scenario. Our 
plans are actually built around that scenario so that again we 
have justification to fall back on why we did this and the 
expenditures we made.
    But he is right. We have a very old infrastructure. The 
modeling shows that. It shows the vulnerabilities of that. 
Retrofitting or fixing existing infrastructure is very costly, 
but building it right on the front-end, having proper building 
codes in place, significantly reduces that cost, and that is 
really what we push, to increase the building codes themselves.
    Senator Pryor. This is really for any of you. If, say, New 
Madrid has a major quake, what is the estimated loss of life? 
Is there an estimate on what you can expect? Anybody want to 
take a stab at that?
    Mr. Wilkinson. Well, let me pull out my cheat sheet here. 
Based on the estimations from the Mid-America Earthquake 
Center, we are looking at about, for the eight-State area, of 
82,000 injuries with about 3,500 to 4,000 fatalities. That is 
from a magnitude 7.7 event. Now, the more probable event-we 
talk a lot about 1811, 1812, but the more probable event is a 
magnitude 6, 6.5, which is very likely in our lifetime, and it 
would have a multi-state impact as well.
    Senator Pryor. OK. But I assume that would be quite a bit 
smaller impact.
    Mr. Wilkinson. Smaller in intensity, but not as far as 
damage. Again, looking at the age in infrastructure and the 
geology of the area.
    Senator Pryor. And there is something about the soil there 
that liquefies and makes damages more likely? Do I understand 
that right?
    Mr. Wilkinson. Yes, sir. It increases the potential for 
amplification of the seismic waves, so infrastructure, bridges, 
pipelines, towers, whatever is on there, has the greater 
capacity to lose the ability to stand. So that is the greatest 
concern we have which is pretty much the entire Delta region.
    Senator Pryor. Mr. Stanley, do you have a sense of how our 
Federal Government is doing in terms of working with state and 
local and private sector folks about earthquake preparedness 
nationwide?
    Mr. Stanley. Yes. I think the Federal Government is working 
quite well. As I indicated, it is a partnership. It is a 
partnership on the vertical axis with the local, State, and 
Federal partners. It is a partnership on the horizontal axis 
with the private sector, the NGOs, and the community 
individuals themselves. So we are able to do some things 
relative to strong mitigation plans, looking at what the 
potential might be.
    A noted seismologist and friend indicates that it is not 
the earthquakes that kill people, it is the buildings and stuff 
in your house that fall on you that injure you. So you have the 
opportunity to harden your space. And when you are looking at 
designing exercises, when you are looking at doing non-
structural education, non-structural retrofits to get people to 
tie down things like water heaters, you are enhancing your 
level of preparedness in your community.
    We have long had a strong relationship with government, 
post-September 11, 2001 especially, when we look at Urban Area 
Security Initiative (UASI) funds. Earthquakes and hurricanes, 
for example, is one of the things that communities can use 
those funds to make sure that we keep those natural hazards in 
front of the community.
    Senator Pryor. Mr. DesRoches, do you want to comment on 
that?
    Mr. DesRoches. Yes, I can.
    Senator Pryor. How is the Federal Government doing and 
State, local, and private sectors?
    Mr. DesRoches. I can particularly comment on some of the 
Federal work in terms of some of the efforts NEHRP has made in 
terms of understanding what is the vulnerability of the 
earthquakes and the systems that work. I think the challenge we 
have is getting some of the States and some of the 
infrastructure owners to make decisions on something that 
probably will not happen in their lifetime, and that is 
something I have struggled with as an educator, is trying to 
get them to understand that it likely will not happen in their 
lifetime, but if it does, it is quite catastrophic.
    Senator Pryor. I have a question for you, Dr. DesRoches, 
about using new technology, even things like Google Earth, to 
help you identify vulnerabilities and potential problems. Do 
you want to comment on that?
    Mr. DesRoches. Sure. We have come a long way as far as 
understanding the vulnerability, both on the hazard side as 
well as the infrastructure stock that we have. I think Jim 
mentioned a little bit about the aging infrastructure in the 
central United States
    We can catalog. We have tools now where we can actually do 
very sophisticated risk assessment where we can look on a 
regional level, whether it is a city level or state level, even 
multi-state level, and propagate an earthquake and really get a 
sense of where the collapses will be, which roads are most 
critical in terms of the ones that would be damaged, and which 
ones we need to really prioritize.
    And so, one of the messages I have today is we cannot go 
about retrofitting all structures that are vulnerable in the 
eastern United States. It would be too expensive. It would take 
too long. But we do have the tools available that will tell us 
which ones are the most priority, which ones will actually save 
the most lives, which ones will result in the least disruption 
following an earthquake. And I think those are the tools that 
need to be put in the hands of those that can use them and that 
is what we need for moving forward.
    Senator Pryor. Good. I just want to say again, thank all of 
you all for being here. I have some more questions, I am sure 
my colleagues will have questions, so we are going to leave the 
record open for a few days.
    I really hope that this 2011 exercise really does bring 
more public awareness and education about what the public 
should do in the event of an earthquake and make sure that we 
are connecting all the dots at all the various governmental 
levels as well.
    Like I said, we will leave the record open for 2 weeks and 
you may get some questions from the Subcommittee. We would 
appreciate quick responses on those. With that, I will adjourn 
the hearing. Thank you.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3864.001

[GRAPHIC] [TIFF OMITTED] T3864.002

[GRAPHIC] [TIFF OMITTED] T3864.003

[GRAPHIC] [TIFF OMITTED] T3864.004

[GRAPHIC] [TIFF OMITTED] T3864.005

[GRAPHIC] [TIFF OMITTED] T3864.006

[GRAPHIC] [TIFF OMITTED] T3864.007

[GRAPHIC] [TIFF OMITTED] T3864.008

[GRAPHIC] [TIFF OMITTED] T3864.009

[GRAPHIC] [TIFF OMITTED] T3864.010

[GRAPHIC] [TIFF OMITTED] T3864.011

[GRAPHIC] [TIFF OMITTED] T3864.012

[GRAPHIC] [TIFF OMITTED] T3864.013

[GRAPHIC] [TIFF OMITTED] T3864.014

[GRAPHIC] [TIFF OMITTED] T3864.015

[GRAPHIC] [TIFF OMITTED] T3864.016

[GRAPHIC] [TIFF OMITTED] T3864.017

[GRAPHIC] [TIFF OMITTED] T3864.018

[GRAPHIC] [TIFF OMITTED] T3864.019

[GRAPHIC] [TIFF OMITTED] T3864.020

[GRAPHIC] [TIFF OMITTED] T3864.021

[GRAPHIC] [TIFF OMITTED] T3864.022

[GRAPHIC] [TIFF OMITTED] T3864.023

[GRAPHIC] [TIFF OMITTED] T3864.024

[GRAPHIC] [TIFF OMITTED] T3864.025

[GRAPHIC] [TIFF OMITTED] T3864.026

[GRAPHIC] [TIFF OMITTED] T3864.027

[GRAPHIC] [TIFF OMITTED] T3864.028

[GRAPHIC] [TIFF OMITTED] T3864.029

[GRAPHIC] [TIFF OMITTED] T3864.030

[GRAPHIC] [TIFF OMITTED] T3864.031

[GRAPHIC] [TIFF OMITTED] T3864.032

[GRAPHIC] [TIFF OMITTED] T3864.033

[GRAPHIC] [TIFF OMITTED] T3864.034

[GRAPHIC] [TIFF OMITTED] T3864.035

[GRAPHIC] [TIFF OMITTED] T3864.036

[GRAPHIC] [TIFF OMITTED] T3864.037

[GRAPHIC] [TIFF OMITTED] T3864.038

[GRAPHIC] [TIFF OMITTED] T3864.039

[GRAPHIC] [TIFF OMITTED] T3864.040

[GRAPHIC] [TIFF OMITTED] T3864.041

[GRAPHIC] [TIFF OMITTED] T3864.042

[GRAPHIC] [TIFF OMITTED] T3864.043

[GRAPHIC] [TIFF OMITTED] T3864.044

[GRAPHIC] [TIFF OMITTED] T3864.045

[GRAPHIC] [TIFF OMITTED] T3864.046

[GRAPHIC] [TIFF OMITTED] T3864.047

[GRAPHIC] [TIFF OMITTED] T3864.048

[GRAPHIC] [TIFF OMITTED] T3864.049

[GRAPHIC] [TIFF OMITTED] T3864.050

[GRAPHIC] [TIFF OMITTED] T3864.051

[GRAPHIC] [TIFF OMITTED] T3864.052

[GRAPHIC] [TIFF OMITTED] T3864.053

[GRAPHIC] [TIFF OMITTED] T3864.054

[GRAPHIC] [TIFF OMITTED] T3864.055

[GRAPHIC] [TIFF OMITTED] T3864.056

[GRAPHIC] [TIFF OMITTED] T3864.057

[GRAPHIC] [TIFF OMITTED] T3864.058

[GRAPHIC] [TIFF OMITTED] T3864.059

[GRAPHIC] [TIFF OMITTED] T3864.060

[GRAPHIC] [TIFF OMITTED] T3864.061

[GRAPHIC] [TIFF OMITTED] T3864.062

[GRAPHIC] [TIFF OMITTED] T3864.063

[GRAPHIC] [TIFF OMITTED] T3864.064

[GRAPHIC] [TIFF OMITTED] T3864.065

[GRAPHIC] [TIFF OMITTED] T3864.066

[GRAPHIC] [TIFF OMITTED] T3864.067

[GRAPHIC] [TIFF OMITTED] T3864.068

[GRAPHIC] [TIFF OMITTED] T3864.069

[GRAPHIC] [TIFF OMITTED] T3864.070

[GRAPHIC] [TIFF OMITTED] T3864.071

[GRAPHIC] [TIFF OMITTED] T3864.072

[GRAPHIC] [TIFF OMITTED] T3864.073

[GRAPHIC] [TIFF OMITTED] T3864.074

[GRAPHIC] [TIFF OMITTED] T3864.075

[GRAPHIC] [TIFF OMITTED] T3864.076

[GRAPHIC] [TIFF OMITTED] T3864.077

[GRAPHIC] [TIFF OMITTED] T3864.078

[GRAPHIC] [TIFF OMITTED] T3864.079

[GRAPHIC] [TIFF OMITTED] T3864.080

[GRAPHIC] [TIFF OMITTED] T3864.081

[GRAPHIC] [TIFF OMITTED] T3864.082

[GRAPHIC] [TIFF OMITTED] T3864.083

[GRAPHIC] [TIFF OMITTED] T3864.084

[GRAPHIC] [TIFF OMITTED] T3864.085

[GRAPHIC] [TIFF OMITTED] T3864.086

[GRAPHIC] [TIFF OMITTED] T3864.087

[GRAPHIC] [TIFF OMITTED] T3864.088

[GRAPHIC] [TIFF OMITTED] T3864.089

[GRAPHIC] [TIFF OMITTED] T3864.090

[GRAPHIC] [TIFF OMITTED] T3864.091

[GRAPHIC] [TIFF OMITTED] T3864.092

[GRAPHIC] [TIFF OMITTED] T3864.093

[GRAPHIC] [TIFF OMITTED] T3864.094

[GRAPHIC] [TIFF OMITTED] T3864.095

[GRAPHIC] [TIFF OMITTED] T3864.096

[GRAPHIC] [TIFF OMITTED] T3864.097

[GRAPHIC] [TIFF OMITTED] T3864.098

[GRAPHIC] [TIFF OMITTED] T3864.099

[GRAPHIC] [TIFF OMITTED] T3864.100

[GRAPHIC] [TIFF OMITTED] T3864.101

[GRAPHIC] [TIFF OMITTED] T3864.102

[GRAPHIC] [TIFF OMITTED] T3864.103

[GRAPHIC] [TIFF OMITTED] T3864.104

[GRAPHIC] [TIFF OMITTED] T3864.105

[GRAPHIC] [TIFF OMITTED] T3864.106

[GRAPHIC] [TIFF OMITTED] T3864.107

[GRAPHIC] [TIFF OMITTED] T3864.108

[GRAPHIC] [TIFF OMITTED] T3864.109

[GRAPHIC] [TIFF OMITTED] T3864.110

[GRAPHIC] [TIFF OMITTED] T3864.111

[GRAPHIC] [TIFF OMITTED] T3864.112

[GRAPHIC] [TIFF OMITTED] T3864.113

[GRAPHIC] [TIFF OMITTED] T3864.114

[GRAPHIC] [TIFF OMITTED] T3864.115

[GRAPHIC] [TIFF OMITTED] T3864.116

[GRAPHIC] [TIFF OMITTED] T3864.117

[GRAPHIC] [TIFF OMITTED] T3864.118

[GRAPHIC] [TIFF OMITTED] T3864.119

[GRAPHIC] [TIFF OMITTED] T3864.120

[GRAPHIC] [TIFF OMITTED] T3864.121

[GRAPHIC] [TIFF OMITTED] T3864.122

[GRAPHIC] [TIFF OMITTED] T3864.123

[GRAPHIC] [TIFF OMITTED] T3864.124

[GRAPHIC] [TIFF OMITTED] T3864.125

[GRAPHIC] [TIFF OMITTED] T3864.126

[GRAPHIC] [TIFF OMITTED] T3864.127

[GRAPHIC] [TIFF OMITTED] T3864.128

[GRAPHIC] [TIFF OMITTED] T3864.129

[GRAPHIC] [TIFF OMITTED] T3864.130

[GRAPHIC] [TIFF OMITTED] T3864.131

[GRAPHIC] [TIFF OMITTED] T3864.132

[GRAPHIC] [TIFF OMITTED] T3864.133

[GRAPHIC] [TIFF OMITTED] T3864.134

[GRAPHIC] [TIFF OMITTED] T3864.135

[GRAPHIC] [TIFF OMITTED] T3864.136

[GRAPHIC] [TIFF OMITTED] T3864.137

[GRAPHIC] [TIFF OMITTED] T3864.138

[GRAPHIC] [TIFF OMITTED] T3864.139

[GRAPHIC] [TIFF OMITTED] T3864.140

[GRAPHIC] [TIFF OMITTED] T3864.141

[GRAPHIC] [TIFF OMITTED] T3864.142

[GRAPHIC] [TIFF OMITTED] T3864.143

[GRAPHIC] [TIFF OMITTED] T3864.144

[GRAPHIC] [TIFF OMITTED] T3864.145

[GRAPHIC] [TIFF OMITTED] T3864.146

[GRAPHIC] [TIFF OMITTED] T3864.147

[GRAPHIC] [TIFF OMITTED] T3864.148

[GRAPHIC] [TIFF OMITTED] T3864.149

[GRAPHIC] [TIFF OMITTED] T3864.150

[GRAPHIC] [TIFF OMITTED] T3864.151

[GRAPHIC] [TIFF OMITTED] T3864.152

[GRAPHIC] [TIFF OMITTED] T3864.153

[GRAPHIC] [TIFF OMITTED] T3864.154

[GRAPHIC] [TIFF OMITTED] T3864.155

[GRAPHIC] [TIFF OMITTED] T3864.156

[GRAPHIC] [TIFF OMITTED] T3864.157

[GRAPHIC] [TIFF OMITTED] T3864.158

[GRAPHIC] [TIFF OMITTED] T3864.159

[GRAPHIC] [TIFF OMITTED] T3864.160

[GRAPHIC] [TIFF OMITTED] T3864.161

[GRAPHIC] [TIFF OMITTED] T3864.162

[GRAPHIC] [TIFF OMITTED] T3864.163

[GRAPHIC] [TIFF OMITTED] T3864.164

[GRAPHIC] [TIFF OMITTED] T3864.165

[GRAPHIC] [TIFF OMITTED] T3864.166

[GRAPHIC] [TIFF OMITTED] T3864.167

[GRAPHIC] [TIFF OMITTED] T3864.168

[GRAPHIC] [TIFF OMITTED] T3864.169

[GRAPHIC] [TIFF OMITTED] T3864.170

[GRAPHIC] [TIFF OMITTED] T3864.171

[GRAPHIC] [TIFF OMITTED] T3864.172

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
